STATE OF N EW YORK
OFFICE OF THE ATTORNEY GENERAL

BARBARA D. UNDERWOOD

LJ:.TITIA )AMES
A lTORNEY GENERAL

SouCrTOll GENERAl

DIVISION OF Al'PEALS &. OMN1°''S

October 23, 2020
The Honorable Scott Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

United States Department ofHomeland Security v. State ofNew York, No. 20-449

Dear Mr. Harris:
I write on behalf of government respondents the States of New York, Connecticut, and
Vermont, and the City of New York to request an extension of time to oppose the petition for a
writ of certiorari in this matter. The current deadline is November 9, 2020, and government
respondents respectfully seek an extension of thirty days. A thirty-day extension results in a
deadline of December 9, 2020 to file an opposition.
Petitioners' counsel has stated that petitioners do not object to this request.
Thank you for your consideration.

Respectfully,

~~ ffi~

(Jv)

Barbara D. Underwood
Solicitor General

cc:

Jeffrey B. Wall (counsel for petitioners)
Jonathan Hurwitz (counsel for private organization respondents)

21! LIDERTY S ffiEEr, NEW YORK, NY 10005-1400 •

PHONE (212)416-8020
WWW.AG.NY.GOV

• FAX (212) 416-8962 •NOT FOR SERVICE OF PAPERS

